March 2005
Report No. 05-013


Receivership Dividend Payments




             AUDIT REPORT
                                                                                          Report No. 05-013
                                                                                               March 2005


                                 Receivership Dividend Payments
                                 Results of Audit

Background and                   DRR has established and implemented adequate controls over the
Purpose of Audit                 receivership dividend payment process. Specifically, the six receivership
                                 dividends we reviewed were properly authorized and adequately
The FDIC is responsible for      supported. Further, DRR ensured that: (1) an approved dividend case
effectively managing             existed before declaring the receivership dividend, (2) sufficient cash was
receivership operations and      available to pay the receivership dividend, (3) no legal or other
ensuring that failed             impediments existed, and (4) required reconciliations were performed
institutions are resolved in
                                 before the disbursement of receivership dividend payments. However, we
the manner that will result in
the least cost to the FDIC’s
                                 also found that from January 1, 2003 through December 31, 2004, the
deposit insurance funds. The     FDIC issued 18,339 paper checks to receivership dividend recipients. In
receivership process includes    this regard, the FDIC could achieve savings associated with efficiency
liquidating failed institution   gains by moving to an electronic payment method.
assets and distributing any
proceeds of the liquidation,
in the form of receivership      Recommendations and Management Response
dividends, to the FDIC,
uninsured depositors, and        The report recommends that DRR assess the feasibility of making
general creditors.               electronic payments to recipients of receivership dividends and revise the
The audit scope included 27      standard interview questionnaire, used by DRR personnel during the
open receiverships, which        receivership closing process, to request recipient bank routing information
declared 30 receivership         for future electronic receivership dividend payments.
dividends from January 1,
2004 through August 31,          FDIC management agreed with the recommendations and has planned
2004. We reviewed 6 of the       actions to address them.
30 receivership dividends
totaling about $33,750,000, or
11 percent of the total.

The objective of the audit
was to determine whether
receivership dividends were
properly authorized and
adequately supported. We
reviewed the Division of
Resolutions and                   Benefits of Using Electronic Fund Transfers
Receiverships (DRR) policies
                                     • Reduction of Paperwork and Associated Cost Savings
and procedures established
for receivership dividends           • More Timely Business Communications
and related controls in the          • More Accurate Business Transactions
claims process.                      • More Efficient Business Processes
                                     • Uniform Communications With Vendors
To view the full report, go to       • Improved Client/Vendor Relationship Transactions
www.fdicig.gov/2005reports.asp    Source: The FDIC’s EFT Handbook.
Federal Deposit Insurance Corporation                                                                        Office of Audits
801 17th Street NW, Washington, DC 20434                                                        Office of Inspector General



DATE:                                  March 22, 2005

MEMORANDUM TO:                         Mitchell L. Glassman, Director
                                       Division of Resolutions and Receiverships



FROM:                                 Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                      Assistant Inspector General for Audits

SUBJECT:                               Receivership Dividend Payments
                                       (Report No. 05-013)


This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of receivership1 dividend payments. The FDIC’s Division of
Resolutions and Receiverships (DRR) has the primary responsibility for managing the
receivership dividend process, which is discussed in detail in the Background section of this
report.

The objective of this audit was to determine whether receivership dividends paid by the FDIC
were properly authorized and adequately supported. The scope of our audit included six
receiverships that made dividend payments from January 1, 2004 through August 31, 2004.
Additional details on our objective, scope, and methodology are in Appendix I.

BACKGROUND

The FDIC is responsible for effectively managing receivership operations and ensuring that
failed institutions are resolved in the manner that will result in the least cost to the FDIC’s
deposit insurance funds. As part of the resolution process, the FDIC acts as the receiver or
liquidating agent for failed federally insured depository institutions. The receiver distributes any
funds realized from its liquidation efforts to the failed institution’s creditors and shareholders in
accordance with the FDI Act.

The receivership process involves performing the closing function at the failed financial
institution, liquidating any remaining institution assets, and distributing any proceeds of the
liquidation to the FDIC and to those with approved claims. Upon the failure of a financial
institution, depositors are paid to the extent the depositor accounts are insured, while depositors
with proven claims against a receivership are issued Receivership Certificates (RC) for any



1
  A receivership is a temporary entity that is established upon the appointment of the FDIC by the appropriate
federal or state regulator authority to wind up the business and affairs of a failed financial institution. The FDIC’s
roles and responsibilities as a receiver are defined by provisions in the Federal Deposit Insurance Act (FDI Act).
uninsured deposits. Further, immediately after its appointment as receiver, the FDIC notifies the
failed institution’s creditors to submit their claims to the receiver. Claimants may file a proof of
claim for unpaid wages, unpaid service provided to the failed institution, or other general claims.
Once a claim has been filed, the receiver has 180 days to determine whether the claim should be
allowed. If the receiver is not satisfied that the claim has merit, it will be disallowed. Once a
claim against the receiver is “proven,” the claimant is provided an RC.

Receivership dividends are distributions of cash to allowed claimants of the failed institution.
The cash is generated through the liquidation of receivership assets. Net proceeds from
collection efforts are invested by the receivership and accumulated, pending payment of
administrative expenses, preferred and secured claims, and dividend distributions. The intent of
the FDIC’s receivership dividend policy is to distribute cash in the form of dividends to allowed
claimants as sufficient cash accumulates in the receivership rather than to hold all cash until final
termination of the receivership.

The order of priority in which allowed claimants receive dividends is governed by FDI Act
section 11(d) as amended by the Omnibus Budget Reconciliation Act, enacted on August 10,
1993. Specifically, for all receiverships (the failed institution can be a bank or thrift or a state or
federally chartered institution), established after August 10, 1993, dividends are paid in the
following order of priority:

        1. Administrative expenses of the receiver.
        2. Deposits (with the FDIC as subrogee for insured depositors being on a par with
           uninsured depositors).
        3. Other general or senior liabilities of the institution.
        4. Any subordinated obligations.
        5. Any obligation of commonly controlled depository institutions for cross-guaranty
           assessments under 12 United States Code § 1815(e)(2)(C).
        6. Shareholder and/or member claims.

As a result of the Act, deposit liabilities of the institution have priority over all claims except the
administrative expenses of the receiver.

Authority to pay dividends is requested by DRR personnel through documented cases approved
by the FDIC official with the appropriate delegated authority. Actual payment of a dividend is
usually done by the issuance of a check to uninsured depositors and other allowed claimants,
though payment by wire is also possible.

FDIC guidance regarding the receivership dividend payment process is principally contained in
the FDIC Claims Procedures Manual and the Accounting Operations Manual.




                                                   2
RESULTS OF AUDIT

DRR has established and implemented adequate controls over the receivership dividend payment
process. Specifically, the six receivership dividends we reviewed were properly authorized and
adequately supported. Further, DRR ensured that: (1) an approved dividend case existed before
declaring the receivership dividend, (2) sufficient cash was available to pay the receivership
dividend, (3) no legal or other impediments existed, and (4) required reconciliations were
performed before the disbursement of dividend payments to approved recipients. However, we
also found that the FDIC generally paid receivership dividends by paper check rather than
electronically. In this regard, the FDIC could achieve savings associated with efficiency gains
by moving to an electronic payment method.

DRR’s Use of Paper Checks in the Dividend Payment Process

Generally, DRR made receivership dividend payments by check rather than electronically.
Specifically, from January 1, 2003 through December 31, 2004, the FDIC issued 18,339 checks
to uninsured depositors to pay receivership dividends.2 Presently, the FDIC does not require the
use of electronic payments, nor does DRR routinely request electronic payment routing
information from receivership dividend payment recipients. As a result, the payment process is
not as efficient, cost-effective, or secure as it could be, nor is the process consistent with current
industry practices.

DRR does not require receivership dividend recipients to receive payments electronically; rather,
DRR offers the recipients voluntary use of electronic payments. We discussed the feasibility of
using electronic payments for receivership dividend payments, and DRR told us that there is no
standard question on the claims interview questionnaire regarding whether recipients would like
their receivership dividend payments electronically. However, during interviews with DRR
Asset Claims personnel, claimants are given the option of receiving receivership dividend
payments electronically.

DRR is researching alternatives for making receivership dividend payments—including
electronic payments. Specifically, DRR contracted with International Business Machines
Corporation (IBM) to perform an independent assessment of the FDIC’s insurance claims
process, as part of DRR’s Claims Process Reengineering Project. As part of the assessment,
IBM was tasked with developing potential options for increasing the capacity of the claims
function. IBM’s report entitled, Federal Deposit Insurance Corporation Claims Processing
Analysis: Discovery Phase Report, dated June 17, 2002, which was prepared under the contract,
suggested that the FDIC consider reengineering the claims process to incorporate more
automation and multiple means of disbursing checks. DRR’s Asset Claims continues to work on



2
  The FDIC could not readily provide information on the number of checks written in comparison to the number of
electronic payments made to receivership dividend recipients for our audit period. However, the FDIC provided
information on the number of checks issued starting in January 2003. Accordingly, we used that information in our
report.
                                                        3
the Claims Process Reengineering Project and is taking many of IBM’s recommendations under
consideration.

The FDIC performed a study in 1998 related to issuing payments by check rather than
electronically, which concluded that deposit payoffs would be more costly if made by electronic
funds transfer (EFT) rather than by check. The study report entitled, Deposit Payoff Analysis—
Payment by Check vs. EFT, was prepared by the Division of Finance’s (DOF) Cash Management
Section. The report discussed deposit payoff checks, which generally represent large one-time
payments to insured depositors, in contrast to receivership dividend payments, which are paid
periodically throughout the life of the receivership.

Efficiency and Cost-Benefit of Using Electronic Payments

According to the Check Conversion Education Coalition (CCEC) and the National Automated
Clearing House Association (NACHA), the U.S. Department of the Treasury (Treasury) has
found electronic payments to be cost-effective and time-saving. The CCEC is a membership
organization consisting of leading financial institutions, government agencies, and Automated
Clearing House operators. NACHA, a trade group promoting uniform rules and standards for
Automated Clearing House associations, has reported that Treasury's Financial Management
Service currently issues over 840 million payments annually on behalf of federal agencies, of
which 425 million are electronic payments. Treasury has stated that direct deposit (a form of
electronic payment) is a safer and more reliable method for making benefit payments and
estimated that converting checks to electronic payments would save the federal government more
than $100 million each year. In addition to the potential cost savings, CCEC and NACHA stated
that the benefits of using electronic payments may include more timely payments to recipients
and more secure transactions.

In 1996, a Senior Analyst with the Federal Reserve Bank of Minneapolis reported that the cost to
the payer of processing a paper check was about $1.40 a check, while the payer’s cost for an
electronic transaction was about $.80. Therefore, there was a reported savings of $.60 per
transaction (or a 43 percent savings) by making electronic payments as opposed to using a paper
check.

Additional support for the use of electronic payment methods is contained in legislation enacted
in 1996. Specifically, a provision of the Omnibus Consolidated Rescissions and Appropriations
Act of 1996 requires that various federal payments be made by EFT and that recipients of such
payments provide the paying agency with information to enable the agency to make those
payments by EFT. This legislation was related to another legislative proposal, the purpose of
which was to promote economy and efficiency in disbursing funds and to eliminate crime
regarding the issuance of Treasury checks. Although receivership dividend payments are not
within the scope of this legislation, the FDIC has implemented steps to reach the goal of
increasing its use of electronic payments. One such step was the FDIC’s development of the
EFT Handbook, dated August 1998. The benefits identified in the handbook for using EFT are
shown on the next page.

                                                4
Potential Savings Related to the            Benefits of Using EFT
FDIC’s Increased Use of Electronic
                                            (1) Reduction of paperwork and associated cost savings:
Payments                                    Reduces paper stocking and storage
                                            Eliminates check printing and equipment
We could not reasonably estimate the        Provides on-line data storage
monetary benefit to the FDIC if             Automatic reconciliation
receivership dividend payments are          Reduced Technician workload
made electronically. Specifically,          High productivity without increasing staff
DRR could not provide us with an            (2) More timely business communications:
estimate of the number of current           Rapid exchange of business data
                                            Payments sent and received more efficiently and effectively
receivership dividend recipient
                                            Elimination of mail charges, courier services
payments that the FDIC could convert
                                            (3) More accurate business transactions:
to electronic payments. Further,            Elimination or reduction of data entry
neither DRR nor DOF could provide           Reduced errors and improved error detection
us with adequate information to             Faster reporting
determine the FDIC’s cost of issuing        (4) More efficient business processes
paper checks as compared to the cost        (5) Uniform communications with all vendors
of making payments electronically.          (6) Improved client/vendor relationships transactions
When such information is available         Source: EFT Handbook.
and savings can be determined, we
will report the monetary benefit associated with this finding.

CONCLUSION AND RECOMMENDATIONS

We recognize that potential cost savings are subject to many variables, including the number of
receivership dividend recipients, the administrative cost of obtaining the bank account
information necessary to establish the electronic payment, and the FDIC’s cost of issuing paper
checks as compared to electronic payments. Nevertheless, the potential exists for the FDIC to
increase the efficiency and security of its receivership dividend payment process by expanding
its use of electronic payments. Therefore, DRR should consider the feasibility of making
receivership dividend payments electronically as opposed to paper check.

We recommend that the Director, DRR:

(1)    Assess the feasibility of making electronic payments to recipients of receivership
       dividends.

(2)    Revise the standard interview questionnaire used by DRR Asset Claims employees
       during the receivership closing process to request recipient bank routing information for
       future electronic receivership dividend payments.

CORPORATION COMMENTS AND OIG EVALUATION

On March 15, 2005, the Director, DRR, provided a written response to a draft of this report. The
response is presented in its entirety in Appendix II of this report. The Director concurred with
                                                 5
both recommendations. The Director’s response to the recommendations is summarized in
Appendix III of this report. Our analysis of the response follows.

DRR management agreed with recommendation 1 to assess the feasibility of making electronic
payments to recipients of receivership dividends. DRR stated that it is a strong advocate of E-
Commerce and has a history of leveraging technology. Additionally, DRR is an integral member
of the New Financial Environment (NFE) implementation team. NFE software will contain an
E-commerce module. Dividend and all receivership payments will be considered for EFT after
NFE implementation.

With respect to recommendation 2, DRR stated that if EFT proves to be cost-effective, DRR will
revise the standard questionnaire to include the recipient’s bank routing information should the
recipient prefer dividend payments through EFT.

Management’s planned actions are responsive to both recommendations. The recommendations
are resolved but will remain undispositioned and open until we have determined that agreed-to
corrective actions have been completed and are effective.




                                               6
                                                                                               APPENDIX I



                          OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether receivership dividends paid by the FDIC
were properly authorized and adequately supported. We reviewed DRR’s policies and
procedures established for receivership dividends and related procedures in the claims process.
The audit scope included 27 open receiverships, which declared 30 receivership dividends from
January 1, 2004 through August 31, 2004. The 30 dividends resulted in about $315 million in
dividend payments over the period. We reviewed 6 of the 30 receivership dividends totaling
about $33,750,000, or 11 percent of the total.

To accomplish our objective and to gain an understanding of internal controls over receivership
dividend payments, we reviewed the following DRR documents:

    •   FDIC Claims Procedures Manual
    •   Resolutions Handbook
    •   EFT Handbook
    •   Accounting Operations Manual
    •   Dividends Processing Users Manual
    •   Receivership Liability System User Manual

We also reviewed previously issued OIG reports3 related to the audit objective, DRR Internal
Review reports, and IBM’s Federal Deposit Insurance Corporation Claims Processing Analysis:
Discovery Phase Report. We interviewed key personnel in the following DRR organizational
units: Asset Claims, Receivership Oversight, Receivership Operations, Accounting Operations,
and Internal Review. We documented the receivership dividend payment process, identified key
controls in the process, and tested those controls. More specifically, we conducted tests of the
dividend payment process for six receivership dividends and evaluated the extent of procedures
performed to ensure that receivership dividend payments had been properly authorized and
supported. To test the accuracy of procedures conducted, we traced receivership dividend
payments to supporting documentation, performed reconciliations, and verified that appropriate
approvals had been obtained before payment was made.

We tested the accuracy of the payments made by tracing the RCs to the dividend payment
amounts and by recalculating and verifying the amounts that the FDIC, as the largest recipient of
receivership dividends, received.

Finally, we reviewed and analyzed laws and regulations applicable to the audit objective, and we
used the Internet to research information related to the federal government’s use of electronic
payments.




3
 We reviewed the following OIG reports: Review of the FDIC’s Strategy for Managing Improper Payments (Audit
Report No. 02-022, June 14, 2002); Internal Control over Receivables from Failed Insured Depository Institutions
(Audit Report No. 03-026, March 28, 2003); Internal Control over Receivership Receipts (Audit Report No. 03-024,
March 27, 2003); and Insurance Determination Claims Process (Audit Report No. 03-041, September 17, 2003).



                                                       7
                                                                              APPENDIX I


Computer-processed data was not significant to our findings, conclusions, and recommendations;
therefore, we were not required to perform assessments of computer-processed data. We did,
however, use computer-processed data as background information in identifying a universe of
receivership dividends from which to select our sample.

We performed our work at the FDIC’s offices in Washington, D.C., and Dallas, Texas, from
August through November 2004 in accordance with generally accepted government auditing
standards.




                                              8
Appendix II
                                                                                                                                           APPENDIX III



                                        MANAGEMENT RESPONSE TO THE RECOMMENDATIONS

This table presents the management response on the report recommendations and the status of the recommendations as of the date of
report issuance.

                                                                                                                                                      Open
 Rec.                                                                     Expected            Monetary      Resolved:a      Dispositioned:b            or
Number         Corrective Action: Taken or Planned/Status             Completion Date         Benefits      Yes or No         Yes or No              Closedc
              DRR is an integral member of the New                    December 31, 2005         N/A            Yes               No                   Open
      1       Financial Environment (NFE)
              implementation team. NFE software will
              contain an E-commerce module. DRR will
              consider dividend and all receivership
              payments for EFT after NFE
              implementation.
              If EFT proves to be cost-effective, DRR                 December 31, 2005          N/A            Yes                No                 Open
      2       will revise the standard interview
              questionnaire to include the recipient’s bank
              routing information should the recipient
              prefer dividend payments through EFT.
a
     Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                    long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                               10
